No. 20-621

In the Supreme Court of the United States
DEANDRE ARTHUR STATEN, Petitioner,
v.
RONALD DAVIS, WARDEN, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Scott A. Taryle, Supervising Deputy Attorney General, a member of the Bar
of this Court hereby certify that on January 28, 2021, one copy of the BRIEF IN
OPPOSITION in the above-entitled case was mailed, first class postage prepaid to:
Norman Daniel James
Attorney at Law
108 Ironwood Court
Hamilton, Montana 59840
Telephone: 406-961-1498
Email: ndjlaw@aol.com

Jerry L. Newton
Attorney at Law
9341 Holt Road
Carmel, CA 93923
(831) 626-2797
jlnewt@sbcglobal.net

I further certify that all parties required to be served have been served.

SCOTT A. TARYLE, Supervising Deputy
Attorney General
Office of the Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213) 269-6073
Counsel for Respondent
LA2020603299/ 63824380.docx

